rr. v

■ i

NO.

IN THE
Supreme Court, U.S.
FILED

SUPREME COURT OF THE UNITED STATES

SEP 2 2 2020
OFFICE OF THE CLERK

In Re: Jesus Anaya
PETITIONER
(Your name)
VS.
United States of America
RESPONDENT(S)

ON PETITION FOR A WRIT OF PROHIBITION PURSUANT TO
THE ALL WRITS ACT 28U.S.C. 1651(a) DIRECTED TO THE
ASSOCIATE JUSTICE WITH SUPERVISORY CONTROL OVER
THE FIFTH CIRCUIT, UNDER SUPREME COURT RULE 22-1
UNITED STATES COURT OF APPEALS FOR THE FIFTH CIRCUIT
(NAME OF COURT THAT LAST RULES ON YOUR CASE)
PETITIONER FOR WRIT OF PROHIBITION
JESUS ANAYA
FED.REG. #57713-198
(Your name)
FEDERAL CORRECTIONAL INSTITUTION
LA TUNA
(Address)
P.O. BOX 3000, ANTHONY, NM/TX 88021
(City, State, Zip Code)

' ; •: I;';.,.:';,

..

h

'

r

'S

-A.

•'nV

CONSTITUTIONAL QUESTION(S)
WHETHER TRIAL AND APPELLATE COUNSEL(S)' S INADEQUATE REPRESENTATION OF JESUS ANAYA CONSTITUTED,
AT BEST, CONSTRUCTIVE DENIAL OF COUNSEL, WHERE TRIAL COUNSEL FAILED WOEFULLY TO SUBJECT THE
GOVERNMENT'S CASE TO "STRICT ADVERSARIAL TESTING' WITH RESPECT TO JESUS ANAYA'S BASE OFFENSE
LEVEL, AND APPELLATE COUNSEL FAILED TO ADEQUATELY ARGUE TO THE APPELLATE COURT, THAT (A) JESUS
ANAYA'S CONSTITUTIONAL RIGHTS WERE VIOLATED IN THE DISTRACT COURT, AND FURTHER (B) JURISTS OF
REASON WOULD CLEARLY DISAGREE WITH THE DECISION OF THE 'DISTRICT COURT', PURSUANT TO SLACK V.
McDANIEL" (CITATIONS OMITTED).

i

•'* ;

•

;

■

''

■s

LIST OF PARTIES
In re: Jesus Anaya
-VUnited States of America

THE NAMES OF ALL PARTIES APPEAR IN THE CAPTION OF THE CASE ON THE COVER PAGE. THERE ARE NO
ADDITIONAL PARTIES.

i!

f

•'y ;M- y';.
;, /:..■'.■js.

•<>■! t-i

• -

*V'r>L

'
Yek'

~v

TABLE OF CONTENTS

I
a-3

OPINIONS BELOW
JURISDICTION
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED ....
STATEMENT OF THE CASE

47

G

%

REASONS FOR GRANTING

w

CONCLUSION
INDEX TO APPENDICES

APPENDIX A —JUDGMENT FROM COURT OF APPEALS FOR THE FIFTH CIRCUIT
APPENDIX B —JUDGMENT AND COMMITMENT FROM THE DISTRICT COURT SOUTHERN DISTRICT OF TEXAS

\•

STATEMENT OF JURISDICTION

Section 1251 provides for original jurisdiction in the Supreme Court for "all actions or proceedings by a state against the citizens
?9e(f9n47V) MitChe"" 400 U *■ 112 <1970); U""ed S,a,eS * L0UiSia"a' 339 U'S . 699
The statutes defining the Supreme Court's jurisdiction between "appeals" and "certiorari" as vehicles for appellate review of the
decisions of sate and lower federal courts, where the statute provides for "appeal" to the Supreme Court, the Court is obligated

" reqUeS,ed-Where ^ S'ate Pr°VideS f°r reVl8W ty "Writ °f Cer,i°rari "l"e
The Court takes the case if there are four votes to grant certiorari. Effective September 25, 1988, the distinction between appeal

sssrsTL

e“nated-N0W almos'a"cases to the supreme court by wrii of

WRIT OF PROHIBITION PURSUANT TO 28 U.S.C. SECTION 1651(a) IN AID OF THE SUPREME COURT'S JURISDICTION,
principtes oHaw6

^ ^ C°UrtS established in aid of their respective jurisdiction and agreeable to the usages and

(B) An akernative writ or rule may be issued by a Justice (Chief Justice) to whom an application to a writ of prohibition is
submitted may refer to the Court for determination.

2.

JURISDICTION

l>X For cases from federal courts:
The date^on which the United States Court of Appeals decided my case
was _luf
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: ____________
and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including_______
(date) on
(date)
in Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
_______________________, and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

3*

/V.

CONSTITUTIONAL AND STATUTORY PROVISIONS

In conducting harmless error analysis of constitutional violations, including direct appeals and especially habeas generally, the
Supeme Court reoeatedly has reaffirmed that "(s)ome constitutional violations ...by their very nature asr so mushd doubt on the
fairness of the trerila prpcess that, as a matter of law, they can never be considered harmless. Safferwhite v. Texas, 486 U.S.
249, 256 (1988); accord Neder v. United States, 527 U.S. 1, 7 (1999)("We have recognized a limited class of fundamental
constitutional errorss tht defy anaklysisby "harmless error," standards"...Errors of this typte are so intribsically garnfuk as to
require automatic reversal(i.e. affect substantial rights) without regard to their effect on tha outcome.")
Sullivan v. Louisiana, 508 U.S. 275, 279 (1993))"Although most constiotutuionasl errors have been held to harmless error
analysis, some will always invalidate the conviction" (citations omitted), Id. at 183 (Rehnquist, C.J. concurring); United States v.
Olano, 507 U.S. 725, 735 (1993); rOSE V. cLARK, 478 u.s. 570, 577-78 (1986)("some comstitutional r=errors require reversal
without regard to the evidence in the particulat=r case...because they render a trial fundamentally unfair");
Vasquez v. Hillery, 474 U.S. 254, 283-264 (1986); Chapman v. Caslifornia, 386 U.S. 18, 23 (1967)("there are =some
constitutional arihgts so basic to a fair trrial that their infracion can nevce be treated as harmless er ror").
JUIDICIAL NOTICE/STATEMENT F ADJUDICAIVE FACTS PURSUAT TO T=RULE 201 OF THE FEDERAL RILES OF
EVIDENCE.
The right to effective assistance of counsel. See, Kyles v. Whitley, 514 U.S. at 435- 436; United Sttes v. cronic, 466 U.S. 648,
654-57 (1984); Hill v. Lockhart, 28 F.2d 832, 839 (8th Cir. 1994)("lt is unnecessry to add a separate layer of h=amless-error
analysis ato bar ecaluation of whether a petitioner has presented a constitutionally significant claim for ineffecrive assistance of
counsel).
LAW RELATED TO STRUCTURAL ERROR
Included in the rights granted by the U.S. constitution, is the protection agaisnt prosecutorial suppression or manipulation of
exculpatory evidence and aathe prosecutorial and judicial failures that amount to fruad upon the court. Failure to make available
to defendant's cpounsel,'information tht cpuld well lead to the assertion of an affirmative defense is material, when 'materiality1
is defeoined as at least a 'rasonable probability thty has the evidence been diclosed to the defense, the result of the judicial
proc eedsings would have been diferent. Kyles v. Whit;ley, 514 U.S. at 435 (quoting Unitred States v. Bagley, 473 U.S. 667, 682
(1985)(plurality opinion); Id. at 685 (White, J. concurring in judgment)). Counsel impermissibly withheld evidence of strictissimi
juris).
In addition to Bagley whjich addresses cliams of prosecutporial suppreession of evidnece, the decisions listed below, all arising
in 'whart might be loosely be called the area of constitutionally guaranteed access ot evidence," Arizona v. Youngblood, 488
U.S. 5T, 55 (1988)(quoting U.S. v. Valenzula-Bernal, 458 U.S. 856, 867 (1982) or require proof of "matariality" or prejudice.
Yhe standard of materiality adopted in each case is not alwsys clear, but if that standard required ar least a "reasonable
probability" of a different outcome, irts satisfaction also automatically satisfies the Btrecht harmless errro rule. See, e.g. Arizona
v. Youngblood, supra at 55 (reognizing athe due process vioaltion basesd on state's loss or destruction befoe trril of material
evidence); Pennsylvania v. Ritchie, 480 U.S. 39, 57-58 (1987)(recognizing due process violation bases on state agency's
refusal to turn over material social services records' "information is material" if it "probably would have changed the outcome of
histrial "citing United States v. Bagley, supra at 685 (White, J. concurring in judgement).
Ake v. Oklahoma, 470 U.S. 68, 83 (1985)(denial of access by indigent defendat to expert psychaitrist violates Deu Process
Clause when defednat's mental condition is "significant factor" atguilt-innocence or captial sentencing phase of trial); Californai
v. Trombetta, 467 U.S. 479, 489-90 (1984)(destruction of blood sasmples might violate Due Process Clause, if there were more
than slim chance tt evidence would affect outcome of trial and if there wasre no alternative meeans of demsostrating
innocence.)United Stsates v. Valenzuaela-Bernal, supra at 873-874 ("As in other cases concerning the loss (by staste or
government of material evidnece, sanctions will be warranted for deportation of alien witness only if there is a reasonable
likelihood tht the testimony could have affected the judgment of the Trie of Fact. "Chambers v. Mississippi, 40 U.S. 284, 302
(1973)(evidentiary process."); Washoington v. Texaas, 388 U.S. 14, 16 (1967)(violation of Compulszory Process Clause when it
arbitrarily deprived defednant of "testimony (that) would have been relevant and material, and ....vital to his defense.").
4“

LAW RELATED TO STRUCTURAL ERROR

Included in the rights granted by the U.S. constitution, is the protection against prosecutorial
suppression or manipulation of exculpatory evidence and the prosecutorial and judicial failures
that amount to fraud upon the court. Failure to make available to defendant's counsel,
information that could well lead to the assertion of an affirmative defense is material, when
'materiality' is defined as at least a 'reasonable probability that has the evidence been disclosed
to the defense, the result of the judicial proceedings would have been different. Kyles v.
Whitley, 514 U.S. at 435 (quoting United States v. Bagley, 473 U.S. 667, 682 (1985) (plurality
opinion); Id. at 685 (White, J. concurring in judgment)). Counsel impermissibly withheld
evidence of strictissimi juris).

In addition to Bagley;which addresses claims of prosecutorial suppression of evidence, the
decisions listed below, all arising in 'what might be loosely be called the area of constitutionally
guaranteed access to evidence," Arizona v. Youngblood, 488 U.S. 51', 55 (1988)(quoting U.S. v.
Valenzula-Bernal, 458 U.S. 856, 867 (1982) or require proof of "materiality" or prejudice.

The standard of materiality adopted in each case is not always clear, but if that standard ■
required at least a "reasonable probability" of a different outcome, its satisfaction also
automatically satisfies the Utrecht harmless error rule. See, e.g. Arizona v. Youngblood, supra at
55 (recognizing the due process violation based on state's loss or destruction before trail of
material evidence); Pennsylvania v. Ritchie, 480 U.S. 39, 57-58 (1987)(recognizing due process
violation bases on state agency's refusal to turn over material social services records',
"information is material" if it "probably would have changed the outcome of his trial "citing
United States v. Bagley, supra at 685 (White, J. concurring in judgement).

S’ ~

Ake v. Oklahoma, 470 U.S. 68, 83 (1985)(denial of access by indigent defendant to expert
psychiatrist violates Due Process Clause when defendant's mental condition is "significant
factor" at guilt-innocence or capital sentencing phase of trial); California v. Trombetta, 467 U.S.
479, 489-90 (1984)(destruction of blood samples might violate Due Process Clause, if there
were more than slim chance evidence would affect outcome of trjal and if there was no
alternative means of demonstrating innocence.)United States v. Valenzuaela-Bernal, supra at
873-874 ("As in other cases concerning the loss (by states or government Of material evidence,
sanctions will be warranted for deportation of alien witness only if there is a reasonable
likelihood that the testimony could have affected the judgment of the Trier of Fact. "Chambers
v. Mississippi, 40 U.S. 284, 302 (1973)(evidentiary process."); Washington v. Texas, 388 U.S. 14,
16 (1967)(violation of Compulsory Process Clause when it arbitrarily deprived defendant of
"testimony (that) would have been relevant and material, and ..,.vital to his defense.").

sLAW RELATED TO STRUCTURAL ERROR FOR JUDICIAL BIAS WITH RESPECT TO THE FAILURE OF
THE COURT TO DETECT FROM THE JUDICIAL PROCEEDINGS THAT IT MAY HAVE BEEN DIVESTED
OF SUBJECT MATTER JURISDICTION.

Included in eh definition of structural errors, is the right to an impartial judge, i.e. the right to a
judge who follows the constitution and Supreme Court precedent ad upholds the oath of the
office. See, e.g. Neder v. United States, supra, 527 U.S., at 8. ("biased trail judge is "structural
error" and this is subject to automatic reversal:)' Edwards v. Balisok, 520 U.S. 461, 469 (1997);
Sullivan v. Louisiana, 508 U.S., at 279; Rose v. clerk, 478 U.S. 570, 577-78 (1986); Tunney v.
Ohio, 273 U.S. 510, 523 (1927).

-r:ti
'

a

■ r>.

.GA
'« A'</
i

STATEMENT OF CASE

Jesus Anaya pleaded guilty to maintaining a drug stash house in violation of 21 U.S..C. Section 856(a)(2) and was sentenced to
a 135-month term of imprisonment. He appealed this sentence challenging the district court's denial of a base offense level
reduction under U.S.S.G. Section 2D1.8(a) (2) and the substantive reasonableness of this so-called within-guidelines sentence.
The Fifth Circuit Court of Appeals affirmed the district court's judgment.
Jesus Anaya filed a Section 2255 Motion to Vacate, Set Aside or reduce Sentence, challenging the sentence, an an amended
Section 2255 motion through counsel jeremy Gordon, alleging ineffective assistance of counsel. The motion was denied by the
District Court on procedurals grounds, and alternatively denied an application for a certificate of Appealability. In July 2019, the
Fifth circuit court of Appeal denied a COA. Jesus Anaya then filed a petition for the writ of mandamus challenging his sentence
and conviction on multiple grounds.

1*

-'.Ui.vvCr,

A

REASONS FOR GRANTING
HOW THE WRIT WILL BE IN OF THE COURT'S APPELLATE JURISDICTION IN GRANTING A WRIT OF PROHIBITION
As a threshold matter, Jesus Anaya, avers that the Writ of Prohibition which he has applied for here, is an extraordinary writ
under the All Writs Act 28 U.S.C. Section 1651 (a) which in pertinent part, states that, all courts established by Act of Congress
may issue all writs necessary or appropriate in aid of their respective jurisdictions, and agreeable to the usages and principles
of law.
In the case at bar, Jesus Anaya contends that what he seeks is a "drastic and extraordinary remedy" reserved for really
extraordinary causes such as this, "where through a combination of constructive denial of counsel, prosecutorial misconduct
and a biased judge, he has been impermissibly denied his Fifth and Sixth Amendment right to Due Process. As here, the
traditional use of the writ is in aid of appellate jurisdiction both in common law an in the federal court. It's use has been to
confine the court(s) against which the writ is sought, to a lawful exercise of its prescribed jurisdiction. "Roche v. Evaporated Milk
Association, 319 U.S. 21,26, 87 L.Ed. 1185.
JESUS ANAYA'S CONTENTION THAT THE ALLEGATIONS HE MAKES CONSTITUTE "EXCEPTIONAL CIRCUMSTANCES'
THAT WARRANTS THE INTERVENTION OF THIS COURT'S DISCRETIONARY POWERS.
Jesus Anaya pleaded guilty to maintaining a stash house in violation of 21 U.S.C. Section 856(a)(2) and was sentenced to a
135 month term of imprisonment. He appealed his sentence to the Fifth Circuit Court of Appeals, challenging the district court's
denial of a base offense level reduction under U.S.S.G. Section 2D1.8(a)(2), and the substantive unreasonableness of his socalled within-guidelines sentence.
By reason of the constitutional violations committed by the District Court and the Court of Appeals for the Fifth Circuit, this
Honorable Court should overturn his sentence and conviction because the District Court, effectively lost subject matter
jurisdiction, by reason of the constitutional violations perpetuated against Jesus Anaya, while the Court of Appeals for the Fifth
Circuit rubberstamped these errors of constitutional dimensions.
The use of a Writ of Prohibition is well settled. It is patently clear in two Supreme Court cases in Dairy Queen Inc. v. Wood, 469
U.S. L.Ed.2d 44 825 S.Ct. 894 (1962), and Beacon Theatres v. Wood, 359 U.S. L.Ed.2d 988, 79 S.Ct. 894 (1959), support the
use of the writ of prohibition to correct an abuse of discretion by the district court. Personette v. Kennedy)in re Midgard Corp,
204 B.R.764, 768 (10th Cir. 1997).
Liker the case at bar, the following cases show that the distinct court "displayed a persistent disregard of the criminal and civil
rules of procedure. "Moothart v. bell, 21 F.3d. 1499, 1504 (10th Cir. 19940(quoting McEwan v. City of Norman, 926 F.2d 1539,
1553-54 (10th Cir. 1991); Jennings v. Rivers, 394 F.3d 850, 854 (10th Cir. 2008)(appellate review of trial court's decision on pos
judgment warrants voluntary dismissal with prejudice if it was not "free, calculated and a deliberate choice"). Hackett v.
Barbhart, 475 F.3d 1166, 1172 (10th Cir. 2007)(quoting Kiowas Indian Tribe of Oklahoma v. Hoover, 150 F.3d 1163, 1165 (10th
Cir. 1998) In re Graves, 609 F.3d 1153, 1156 (10th Cir. 2010); See Braunstein v. McCabe, 571 F.3d 108, 120 (1st. Cir. 2009)
(giving courts broad discretion in preventing injustice or fairness.
The real issue at stake in this case is one of subject matter jurisdiction. Subject matter jurisdiction also refers to the competency
of the court to hear or determine a particular category of cases. Federal district courts have "limited" jurisdiction in that they
have no such jurisdiction as is explicitly conferred by federal statute. 3231 et seq.
Thus, given the totality of the claims raised by Jesus Anaya in this petition, he respectfully moves the Supreme court to
determine if the District Court and the Court of Appeals for the Fifth Circuit properly exercised the jurisdiction conferred on it by
28 U.S.C. 3231 and 28 U.S.C. 1291 respectively, and whether the constitutional prohibition against Double Jeopardy, includes
within it, the right of the defendant (but not the state) to plead 'collateral estoppel' and thereby preclude proof of some essential
element of the state's case found in the defendant's favor.

S.

.*

•' • ••
■J

'■

•

'■

.tX
5>

. - JE‘.
‘.M

CONSTITUTIONAL QUESTION

WHETHER TRIAL AND APPELLATE COUNSEL(S)’S INADEQUATE REPRESENTATION CONSTITUTED CONSTRUCTIVE
DENIAL OF COUNSEL, WHERE TRIAL COUNSEL FAILED TO SUBJECT THE GOVERNMENT'S CASE TO 'STRICT
ADVERSARIAL TESTING' WITH RESPECT TO THE BASE OFFENSE LEVEL, AND APPELLATE COUNSEL FAILED TO
ARGUE TO THE APPELLATE COURT THAT, (A) THE DISTRICT COURT VIOLATED JESUS ANAYA'S CONSTITUTIONAL
RIGHTS AND (B) THAT JURISTS OF REASON WOULD CLEARLY DISAGREE WITH THE DECISION OF DISTRICT COURT'
PURSUANT TO SLACK V. McDANIEL (CITATIONS OMITTED)
STANDARD OF REVIEW
The Sixth Amendment right to counsel is the right to effective assistance of counsel. McMann v. Richardson, 397 U.S. 759, 771
McMann (1970). The benchmark for judging any claim of ineffective assistance of counsel, however, is whether counsel's
conduct so undermined the proper functioning of the adversarial process that the trial cannot be relied on as having produced a
just result. Strickland v. Washington, 466 U.S. 668, 688 (1984), See also Boykin v,. Wainwright, 737 F.2d 1539, 1542 (11th Cir.
1984).
Because a lawyer is presumed to be competent to assist a defendant, the burden is not on the accused to demonstrate the
denial of he effective assistance of counsel. United States v. Cronic, 466 U.S. 648, 658 (1984). Ineffective assistance of counsel
may be grounds for vacating conviction if;
(1) Counsel's performance fell below an objective standard of reasonable assistance and;
(2) the defendant was prejudiced by the deficient performance. Strickland, 466 U.S.. at 687, 694. "There is no reason for a court
deciding an ineffective assistance of counsel claim ...to address both components of the inquiry if the defendant makes an
insufficient showing on one." Strickland, 466 U.S. at 690.
In other words, when reviewing counsel's decisions, "the issue is not what is possible or "what is prudent or appropriate, but
only what is constitutionally compelled," Chandler v. United States, 218 F.3d 1305, 131 (11th Cir. 2000 . (en banc)(quoting
Burger v. Kemp, 483 U.S. 776 (1987), cert denied, 531 U.S. 1204 (2001).
Furthermore, "(the burden of persuasion is on a petitioner to prove, by a preponderance of the evidence, that counsel's
performance was unreasonable.)"ld. (citing Strickland, 466 U.S. at 688). The burden of persuasion, though not insurmountable,
is a heavy one. See Id. at 1314 (citing Kimmelman v. Morrison, 477 U.S. 365 (1986)).
"Judicial scrutiny of counsel's performance must be highly deferential," and courts "must indulge (the) strong presumption of
"that counsel's performance was reasonable and he counsel made all significant decisions in the exercise of reasonable
.professional judgment." Id. (quoting Strickland, 466 U.S. at 689-90). therefore, counsel cannot be adjudged incompetent for
performing in a particular way in a case, as long as the approach taken "might be considered sound trial strategy." Id. (quoting
Darden v. Wainwright, 477 U.S. 168 (1986).
If the record is incomplete or unclear about counsel's actions, then it is presumed that counsel exercised reasonable judgment.
See Id at 1314-15 n.15. Thus, the presumption accorded counsel's performance "is not ...that the particular defense lawyer in
reality focused on and, then deliberately decided to do or not to do a specific act." Id. Rather, the presumption is "that what the
particular defense lawyer did at trial...were acts that some reasonable lawyers might do." Id.
Moreover, "(the reasonableness of counsel's performance is an objective inquiry.") id. at 1315. For a petitioner to show deficient
performance he "must establish that no competent counsel would have taken the action that his counsel did take. "Id. To uphold
a lawyer's strategy." Id. at 1315 n. 16. Finally, "(no absolute rules dictate what is reasonable performance for lawyers." Id. at

Further, counsel does not provide ineffective assistance when frivolous arguments are not raised on appeal Jones v. Barnes,
463 U.S. 745 (1983), see also United States v. Winfield, 960 F.2d 970, 974 (11th Cir. 1992) (attorney not ineffective for failing to

argue a meritless issue).
American Bar Association standards are to be used only as "guides" in reviewing whether an attorney's performance is
reasonable, reversing a finding of deficient performance where the lower court treated the ABA standards as "inexorable
commands that attorneys must "fully comply with," United States v. Mooney, 497 F.3d 397, 404 (4th Cir. 2007)(counsel in
criminal cases are charged with the responsibility of conducting investigations, both factual and legal, to determine if matters of
defense can be developed).
The critical issue is whether, applying prevailing professional norms, trial counsel an objectively reasonable investigation to
mitigating evidence. Porter v. McCallum, 558 U.S. 30,40,130 S.Ct. 447,452-53,175 L.Ed .2d 398. (2009); Kramer v. Kemna,
21 F.3d 305, 309 (8th Cir,. 1994)(failure to interview witnesses or discovering mitigating evidence may be a basis or finding
ineffective assistance of counsel),"Hart v. Gomez, 174 F.3d 1067,1070 (9th Cir. 1996)(a lawyer who fails adequately to
investigate, and to introduce into evidence records that demonstrate his client's factual innocence, or that raises sufficient doubt
as to that question to undermine confidence in the verdict, renders deficient performance)."
APPELLATE COUNSEL JEREMY GORDON WAS WOEFULLY DEFICIENT IN NOT ARGUING THE DISTRICT COURT'S
DETERMINATION OF THE CASE VIOLATED JESUS ANAYA'S CONSTITUTIONAL RIGHTS, AND JURISTS OF REASON
WOULD CLEARLY DISAGREE WITH THE DECISION OF THE DISTRICT COURT, PURSUANT TO SLACK V. McDANIEL
(CITATIONS OMITTED).
As an initial matter, Jesus Anaya submits that, a certificate of appealability ("COA") must be obtained before an appeal can be
taken from the denial of a Section 2255 petition. 28 U.S.C. Section 2253. In the case at bar, the district Court did sua sponte
denied the application when it entered its final decision. Although, Jeremy Gordon did appeal to the Fifth Circuit when the COA
was denied, he failed to articulate with any specificity that, in Jesus Anaya's case, the base offense level utilized in his client's
case, amounted to clear error on the part of the judge, prosecutorial misconduct by the government, and more importantly,
adherence to this constitutional error, would lead to a miscarriage of justice for Jesus Anaya.
"A substantial showing of the denial of a constitutional right" must be made before a COA will issue. 28 U.S.C,. Section 2253(c)
(2). This requires a showing that "reasonable jurists could debate ...whether...the petition should have been resolved in a
different manner, or that the issues presented were adequate to deserve encouragement to proceed further." Slack v„
McDaniel, 529 U.S. 473, 484,146 L.Ed.2d 542 (2000).
Jeremy Gordon's attempt before the Fifth Circuit to prove that before the issuance of of a COA, that some jurists would have
granted the petition for habeas corpus, was error. Miller El c. Cockrell, 537 U.S. 322,336,154 L.Ed.2d 931 (2003). indeed, a
claim can be debatable even though every jurist of reason might agree, after the COA has been granted and the case has
received full consideration, that the petitioner will not prevail." Muller-EI, 537 U.S. at 338. Another fatal error committed by
appellate counsel Jeremy Gordon, was his failure to file a Petition for Rehearing to argue the fact that the Fifth Circuit itself in
the consideration of the issue of issuing a COA, may have abused its discretion, by inverting the predicates for the issuance of
a COA. It rubberstamped the District Court’s denial of the COA, and never issued the COA itself before the merits of Jesus
Anaya's case. See, Davis v. United States (citations omitted).
■>
A

CONSTRUCTIVE DENIAL OF COUNSEL - STANDARDS AND ARGUMENTS.

In United States v. Cronic, 466 U.S. 648,658-59, 80 L.Ed.2d 757 (1984), the supreme Court held that "presumption of prejudice
applied when counsel" entirely fails to subject the prosecutor's case to meaningful adversarial testing, where counsel is actually
or constructively denied during critical stage of proceedings, or when there are "various kinds of state interference with
counsel's assistance").
As an initial matter, Jesus Anaya was convicted pursuant to a plea agreement that stated he maintained a stash house. Not
only was he not sentenced within the guideline range by reason of the defective base offense utilized in his case, trial Counsel
did nothing about it, so did the appellate counsel woeful arguments were borderline frivolous on appeal.
To put it bluntly, Jesus Anaya was looking for an effective F. Lee Bailey type aggressive lawyer, what he got both on the trial
level and appeal were a Bamum and Bailey travesty of a defense. A comedy of errors, pre-eminent of which was failure to
subject the government's case to strict adversarial testing. Counsel, in fact followed a well scripted trial strategy, courtesy of the
government, in which he gave a semblance of effective representation, without throwing any hard punches at the government's
case. Most of Counsel's mishaps happened during critical aspects of the trial including at sentencing and appeal.

»0.

CONCLUSION

cM-aproduc, of criminal defended^un^a^

'“S "*'" <*•** cases than in

rendered, but whether the guilty verdict rendered in this Mai

have to8"

ooreuK^'erwl 0,6 ri9hts 10 couns°1' «« Gideon

g&W

required to prove specific prejudice in order to obtain relief for a vintetfci6^ *iS‘ 3°u,49 (1984)(:the defendant should not be ; the
reasonable 3°“K ;nS!"JC,ion' see’ S“«van v. Louisiana 508 U S 275 280 ISMirfnd'Srfn nle°")'and lhe ri9ht to accurate
a°,Ual)U“'couid thusnoiappieS^^

-sz^dSSS
assr^sM^; surras?, saw

standard applies whether or no. the state court recognized thi etror and rS'iewed'it S St” WWn9 ,hat

x*
A

jfeSui,

•wis d'tm'otLASus^ CrnnA
V-^a-^fiSib^
SL&W fer# hk&>, ^ Op

&yu 'US! ^mip

^

Bre“

h&KMk <\AB\/-6rf
(SvWiurf <\~
vfre^fed4 ftA/VVM SmSVW tffcQ,
fferU*. AvAKH/V

